                                  CLOSEOUT MEMORANDUM




        A review of NSF calling card records' revealed numerous calls, including several
expensive and lengthy long distance calls from foreign countries, to a local dial-up number for a
modem connection to a commercial Internet Service Provider (ISP).~The owner of the calling
card was identified.' It was established that the subject left her personal NSF computer logged
on to the NSF network continuously, with a set of forwarding rules that transmitted incoming
email messages to a private ISP email a ~ c o u n t .The
                                                     ~ subject then used the connection to the
commercial ISP as a means to access NSF-email, including attachments, rather than using the
direct RLS dial-in or https:Nexchange.nsf.gov, which did not allow attachments to be accessed
via the Macintosh system used. The procedure had been developed with the IT specialist5for the
division, and the administrative officer6was aware of this continuing use of the calling card.

       Accordingly, this case is closed.




                                                                                 SF 01G Form 2 (1'1102)
